                    TESTIMONY OF
                  HAROLD W. GEISEL
            DEPUTY INSPECTOR GENERAL
           OFFICE OF INSPECTOR GENERAL
           U.S. DEPARTMENT OF STATE AND
      THE BROADCASTING BOARD OF GOVERNORS


                   BEFORE THE


          U.S. HOUSE OF REPRESENTATIVES
 COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM


                        ON


U.S. FOREIGN ASSISTANCE: WHAT OVERSIGHT MECHANISMS
       ARE IN PLACE TO ENSURE ACCOUNTABILITY?


                   APRIL 10, 2013
        Chairman Issa, Ranking Member Cummings, and members of the Committee, thank you

for the invitation to discuss our perspective on challenges affecting the successful oversight of

U.S. foreign assistance.

        Corruption and complexity are fundamental challenges to any international assistance

program, specifically those operations based on government-to-government transfers of funds to

countries with unstable political climates, which, without explicit caveats to allow continued

oversight activities, inherently limit the transparency of, accountability for, and accessibility to

funds once control has been relinquished to foreign states. In a June 2011 report from the Senate

Committee on Foreign Relations, Congress expressed concern over the potential threat of

corruption amid the changing landscape of Afghanistan reconstruction and outlined that related

U.S. direct foreign assistance projects should be “necessary, achievable, and sustainable.” 1 Your

own Subcommittee on National Security, Homeland Defense and Foreign Operations,

underscored this point with a followup hearing on the challenges of oversight in Iraq and

Afghanistan on December 7, 2011. During that hearing, I had the honor to present our

accomplishments in this area—more than $200 million in questioned costs and funds put to better

use, $16.6 million in investigative recoveries, and 20 contractor suspensions during FY 2011 2—

as well as a preview of our detailed strategic plan to continue to monitor Department-funded

programs in the region.




1
  Staff of S. Comm. on Foreign Relations, 112th Cong., Evaluating U.S. Foreign Assistance to Afghanistan 21
(Comm. Print 2011).
2
  Oversight in Iraq and Afghanistan: Challenges and Solutions Before the H. Comm. on Oversight and Govt.
Reform, 112th Cong. 2 (2011) (statement of Harold W. Geisel, Deputy Inspector General, Department of State,
Office of Inspector General).

                                                       2
In FY 2011, U.S. foreign assistance totaled $32 billion, 3 much of which was devoted to peace

and security programs in Iraq, Afghanistan, and Pakistan, global HIV/AIDs prevention, and

democracy promotion activities. Foreign assistance coordination among agencies and

Department bureaus remains inadequate. 4 OIG has found duplication among agency programs

and staffing. In the Quadrennial Diplomacy and Development Review (QDDR), the Department

and the United States Agency for International Development (USAID) recognized the need to

better coordinate programs and established a goal of empowering the Chief of Mission to better

oversee all agency activities.



Given rapidly changing relationships and events in frontline states and at other missions, the

need exists to regularly evaluate programs. Changes in the bilateral relationship between the

United States and Pakistan, coupled with pervasive corruption and a lack of absorptive capacity

in many levels of government, a daunting security environment, and a shortage of secure office

space and staffing, had contributed to a large pipeline of unspent assistance funding. OIG

recommended the Department review all staffing plans, requests, and construction projects with

an eye to scaling them back. The mission completed a rightsizing review and reduced its

projected 5-year staffing numbers by 200 positions, required project-based or time-specified

positions to be re-evaluated in a timely manner, and identified problems that would jeopardize

the viability of current and proposed construction projects if changes occur in the scale of foreign

assistance to Pakistan. 5


3
  FY 2011 Congressional Budget Justification for Foreign Operations.
4
  Inspection of Embassy Nairobi, Kenya (ISP-I-12-38A, Aug. 2012); Inspection of Embassy Pretoria, South Africa, and
Constituent Posts (ISP-I-11-42A, June 2011); Compliance Followup Review of Embassy Islamabad and Constituent
Posts, Pakistan (ISP-C-12-28A, May 2012); Compliance Followup Review of Embassy Kabul, Afghanistan (ISP-C-11-
53A, June 2011).
5
  Embassy Islamabad compliance correspondence (12 MDA 25018).

                                                         3
Consistent with QDDR goals, the Department recently added program evaluation guidance to the

Foreign Affairs Manual 6 (FAM) to strengthen the way the Department measures performance.

Additionally, to improve security and justice sector assistance, Department bureaus have started

to develop Bureau Evaluation Plans in which they identify programs to be evaluated and the

dates those evaluations will occur.

        To increase efficiency and effectiveness, foreign assistance oversight in Southwest Asia

is coordinated under the aegis of the Southwest Asia Joint Planning Group, an interagency

coalition of OIGs that results in more effective oversight of U.S.-led efforts in the region by

eliminating redundant oversight and maximizing the use of scarce taxpayer dollars. In

November 2011, representatives from the Department of Defense (DOD), USAID, and the

Department of State (Department) Offices of Inspector General joined the Special Inspector

General for Afghanistan Reconstruction (SIGAR) to convene the Joint Strategic Planning

Subgroup for Oversight of Afghanistan Reconstruction. Through an annual comprehensive

oversight plan, the subgroup coordinates and manages oversight of Afghanistan reconstruction

and allows the members to best leverage their limited resources.

        According to SIGAR’s October 30, 2012, quarterly report to Congress, the Department

was responsible for approximately $477 million (2.8 percent) of $16.5 billion of U.S.

Government funds spent on reconstruction programs in Afghanistan during FY 2012. 7 In terms

of government-to-government assistance, I believe USAID is the primary agency currently

providing direct assistance to Afghanistan.



6
 18 FAM 300, “Program Evaluation Policy.”
7
 Special Inspector General for Afghanistan Reconstruction, Quarterly Report to the United States Congress,
Oct. 30, 2012.

                                                        4
        OIG has substantially expanded its oversight during the past 3 years to support the

transition from a military- to a civilian-led U.S. mission in Afghanistan. OIG has appropriately

sized its oversight of those programs and expenditures proportionate to the involvement of other

agencies.

        Of the seven Department-managed programs currently operating in Afghanistan, the

International Narcotics Control and Law Enforcement (INCLE) program, operated by the Bureau

of International Narcotics and Law Enforcement Affairs (INL), received approximately

$324 million in FY 2012, roughly 68 percent of the Department’s total appropriation for Afghan

reconstruction that year. 8 In light of the significant percentage of Department funding devoted to

counternarcotics efforts in Afghanistan and the well-established link between the narcotics

industry and insurgency support prevalent in the country, OIG’s Middle East Region Operations

Directorate (MERO) has already conducted several audits of INL programs and contracts.

        In December 2009, OIG reported that “the Department of State lacks a long-term strategy

and a clear end state for its counternarcotics programs in Afghanistan, which hinders planning

and prevents an accurate assessment of effectiveness.” 9 OIG found impediments to adequate

Department planning and oversight in the form of the Afghan Government’s weak judicial

system, internal corruption, economic uncertainty, financial fraud, religious conflicts, unstable

security, and uncontrolled borders. OIG recommended that INL establish clearly defined and

measurable performance objectives, milestones, and benchmarks for a comprehensive

counternarcotics plan; and increase coordination and communication between appropriate

embassies, bureaus, industry experts, Provincial Reconstruction Teams, and Afghan officials and

local citizens to garner support, knowledge, and skill for collaborative counternarcotics efforts.

8
  Special Inspector General for Afghanistan Reconstruction, Quarterly Report to the United States Congress,
Oct. 30, 2012
9
  Status of INL Counternarcotics Programs in Afghanistan (MERO-A-10-02, Dec. 2009).

                                                        5
Although INL and Embassy Kabul concurred with OIG’s recommendations and made progress

toward implementation, the same external obstacles to the oversight of government-to-

government funding persist.

        To focus more closely on this specific area of risk, OIG has planned a FY 2013 audit of

INL’s Counternarcotics Program that will include review of the Good Performers Initiative

(GPI), a component of the program that is designed to incentivize provincial governors’

counternarcotics and supply reduction activities in Afghanistan. The FY 2012 Operational Plan

Verification Statement, prepared by the Coordinating Director for Development and Economic

Affairs (CDDEA) at Embassy Kabul, dated May 10, 2012, estimated $10 million in planned

funding for GPI. 10 According to Embassy Kabul, the provincial governors are to receive a total

of $18.2 million in GPI funds for FY 2013; those payments were made on February 12, 2013.

Additional plans for related FY 2014 audits currently are underway.

        In FY 2012, Congress awarded the second largest portion of the Department’s Afghan

reconstruction appropriations, approximately $87 million,11 to humanitarian efforts in the form

of the Bureau of Population, Refugees and Migration (PRM) Migration & Refugee Assistance

(MRA) program. In a July 2011 MERO report 12 on reintegration assistance for refugees

returning to Afghanistan, OIG found that the Department’s partnership with the United Nations

High Commissioner for Refugees (UNHCR) and other nongovernmental organizations had been

generally successful in providing medical examinations, cash stipends, and shelter materials to

returning refugees. However, OIG further stated that “[b]ecause of the Afghan Government’s

inability to provide adequate assistance to returnees, the international community mainly bears


10
   Department of State, FY 12 Operational Plan Verification Statement, May 10, 2012.
11
   Special Inspector General for Afghanistan Reconstruction, Quarterly Report to the United States Congress,
Oct. 30, 2012
12
   PRM’s Reintegration Assistance Program for Refugees Returning to Afghanistan (MERO-I-11-10, July 2011).

                                                       6
the burden.” 13 OIG identified an example of this inequitable distribution in the poorly

administered Afghan Government’s Land Allocation Scheme, originally designed to award land

plots to returning refugees. Citing mismanagement and failure to achieve intended goals, the

UNHCR withdrew financial support from the program and attempted to supplement the absence

of land awards with its own infrastructure projects and revenue generating programs. As land

disputes and security concerns continue to jeopardize the delivery of assistance to returnees,

PRM is often forced to enlist third-party proxies, which further complicate our ability to

comprehensively monitor direct funds.

        The third largest portion of the Department’s FY 2012 appropriations for Afghan

reconstruction was dedicated to the Nonproliferation, Antiterrorism, Demining, and Related

(NADR) programs, an estimated $65 million14 (9 percent) of the total $711 million 15 NADR

allocation from the Department’s FY 2012 foreign assistance budget. The fourth largest portion

of the Department’s remaining security program in Afghanistan, International Military Education

and Training (IMET), received approximately $1 million16 of the Department’s total FY 2012

IMET appropriation of $106 million.17 In a February 2013 report on key oversight issues in

Afghanistan, the Government Accountability Office (GAO) anticipated that the Department

would only require $56 million in combined FY 2013 budgetary requests for NADR, IMET, and

Voluntary Peacekeeping funds. 18 The GAO report expressed renewed concern that “high levels

of corruption” in the Afghan Government continue to threaten U.S. and international assistance,

but the report also highlighted positive steps taken by the Afghan Government to improve
13
   Ibid.
14
   Special Inspector General for Afghanistan Reconstruction, Quarterly Report to the United States Congress,
Oct. 30, 2012
15
   Department of State, Fiscal Year 2012 Agency Financial Report.
16
   Special Inspector General for Afghanistan Reconstruction, Quarterly Report to the United States Congress,
Oct. 30, 2012
17
   Department of State, Fiscal Year 2012 Agency Financial Report.
18
   U.S. Government Accountability Office, AFGHANISTAN—Key Oversight Issues (GAO-13-218SP, Feb. 2013).

                                                      7
accountability after the 2012 Tokyo Conference, including presentation of the “anticorruption

decree enumerating specific actions that the Afghan Government will take to improve

governance and the rule of law.” 19

        Despite the limitations in continuous monitoring of funds transferred to foreign

governments and managed by third-party entities, OIG’s Office of Inspections (ISP), in its 2011

Compliance Follow-up Review (CFR) of Embassy Kabul, 20 found that the embassy’s CDDEA

provided extensive “oversight and coordination of an enormous assistance program and a

complex civilian-military planning process.” The CDDEA’s oversight role, including the

establishment of a unit to monitor program development and tighten financial controls, had

considerable positive impacts, both in cataloging the myriad assistance programs and in

identifying weaknesses and overlaps of the many U.S. agencies operating in Afghanistan. OIG

found that the CDDEA successfully embodied the Department’s vision for chiefs of mission to

serve as “Chief Executive Officers” of a multilateral organization, as outlined in the QDDR, a

blueprint to elevate civilian capacities in foreign development and to improve the Department’s

deliverable results through focused and measurable collaboration. 21 However, unresolved

questions linger surrounding chief of mission authority and oversight responsibilities over direct

assistance programs largely implemented by other agencies. In response to OIG

recommendations, the embassy reported on a number of actions taken to clarify and improve

oversight and managerial roles of various offices and agencies dealing with foreign assistance.

We are planning to conduct another inspection of Embassy Kabul in the next fiscal year.




19
   Ibid.
20
   Compliance Follow-up Review of Embassy Kabul, Afghanistan (ISP-C-11-53A, June 2011).
21
   Department of State, “The First Quadrennial Diplomacy and Development Review (QDDR): Leading Through
Civilian Power,” <http://www.state.gov/s/dmr/qddr>, accessed on Mar. 29, 2013.

                                                    8
        Similarly, ISP’s May 2012 Compliance Followup Review of Embassy Islamabad 22 found

that the U.S. mission in Pakistan faces the challenge of programming more than $2 billion in

annual funding for development and security assistance programs, a challenge made more

daunting by the unpredictable security environment and by insufficient capacity and pervasive

corruption at all levels of government. Given the prevalence of institutional weaknesses and

corruption and the complexity of expansive multilateral networks of assistance, there is a

consensus within the mission to move away from an artificial target of

Government-to-Government programming. The U.S. mission has taken a pragmatic approach,

only programming significant resources through Government of Pakistan institutions that have

demonstrated implementing capacity. Where that capacity does not exist, the U.S. mission relies

more heavily on nongovernmental institutions, civil society organizations, and the private sector,

increasingly exploring public-private partnerships.

        In late 2009, Embassy Islamabad created an assistance coordinator position, with the rank

of minister counselor, to oversee all civilian assistance. The coordinator is one of two senior

positions in the embassy above a section/agency chief that reports directly to the ambassador.

OIG found that the coordinator and his office competently oversee USAID and the refugee

affairs office. The realities of the extremely large aid program and the complex politics of the

U.S.-Pakistani relationship require extensive oversight, yet the assistance coordinator in

Islamabad does not have full supervisory powers over all assistance and economic entities, as the

CDDEA has in Kabul.

An inspection team recently returned from Iraq and is preparing a report that will address

management and oversight of U.S. assistance programs there.


22
 Compliance Followup Review of Embassy Islamabad and Constituent Posts, Pakistan (ISP-C-12-28A,
May 2012).

                                                    9
        OIG’s Office of Investigations (INV) has also made significant contributions to the

successful oversight of reconstruction programs in Afghanistan. During FYs 2011–2013, to

date, INV has completed 20 productive investigations related to fraud, waste, and abuse in

Afghanistan reconstruction programs, recovering $7.6 million of a total $26.9 million (28

percent) in mismanaged funds. Further, 32 of 81 (39.5 percent) suspensions and debarments

processed by INV during FYs 2011–2013, to date, resulted from thorough investigation of

suspicious Department-funded contracting activities in Afghanistan.

        Since former Secretary of State Condoleezza Rice appointed me as Deputy Inspector

General in June 2008, it has been my pleasure to lead an organization of excellent oversight

professionals in pursuit of the most relevant concerns in the most volatile environments at the

most critical times. Our work speaks for itself, but, among other achievements, our audits,

inspections, and investigations have resulted in a number of deficient senior officials leaving

their posts, have identified waste in places such as Kabul, Baghdad, and Islamabad, and have

identified close to a billion dollars in monetary savings. In a February 2013 report, the

Congressional Research Service noted that, despite our best efforts to preserve the integrity of

international assistance, “[p]ersistent challenges to effective evaluation include unclear aid

objectives, funding and personnel constraints, emphasis on accountability for funds,

methodological challenges, compressed timelines, country ownership and donor coordination

commitments, security, and agency and personnel incentives.” 23

        As evidenced through our inspections, audits, and investigations, enduring obstacles to

direct U.S. assistance—such as government corruption in unstable regimes and complicated and

redundant multilateral networks—may continue to plague our efforts, but I am confident that


23
  Marian L. Lawson, Congressional Research Service, Does Foreign Aid Work? Efforts to Evaluate U.S. Foreign
Assistance (R42827, Feb. 13, 2013).

                                                     10
moving forward, with sustained congressional support, we are eager and well-prepared to attack

those systemic challenges in furtherance of our mission to promote “effective management,

accountability, and positive change” in the international community.

       Once again, thank you, Chairman Issa, Ranking Member Cummings, and members of the

Committee, for the opportunity to appear before you today. I would be pleased to take any

questions you have at this time.




                                               11
